TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2009 Statutory Review of
                      Disclosure of Collection Activity With
                            Respect to Joint Returns



                                          March 12, 2009

                              Reference Number: 2009-30-046




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 12, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2009 Statutory Review of
                             Disclosure of Collection Activity With Respect to Joint Returns
                             (Audit # 200930008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is in compliance with Internal Revenue Code Section (I.R.C. §) 6103(e)(8) related to the
 disclosure of collection activities to joint filers. The Treasury Inspector General for Tax
 Administration is required under I.R.C. § 7803(d)(1)(B) to annually evaluate the IRS’
 compliance with the joint filer provisions of the law.

 Impact on the Taxpayer
 I.R.C. § 6103(e)(8) gives joint filer taxpayers who are no longer married or no longer reside in
 the same household the right to request information regarding the IRS’ efforts to collect
 delinquent taxes on their joint return liabilities. The IRS has implemented procedures for
 responding to requests from taxpayers concerning collection activity on their joint tax liabilities.
 We believe these procedures provide IRS employees sufficient guidance for handling these
 requests in accordance with the law.
                 Fiscal Year 2009 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns




Synopsis
IRS procedures provide employees with sufficient guidance for handling joint filer collection
activity information requests. However, we could not determine whether the IRS fully complied
with I.R.C. § 6103(e)(8) requirements when responding to all written information requests from
joint filers. IRS management information systems do not separately record or monitor joint filer
requests, and there is no legal requirement for the IRS to do so. Further, we do not recommend
the creation of a separate tracking system. Accordingly, we made no recommendations in this
report.

Response
Although we made no recommendations in this report, we did provide IRS officials an
opportunity to review the draft report. IRS management did not provide us with any report
comments.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                                    2
                       Fiscal Year 2009 Statutory Review of Disclosure of Collection
                                   Activity With Respect to Joint Returns




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Manual Provides Employees Sufficient
          Guidance for Handling Joint Filer Collection Activity
          Information Requests ....................................................................................Page 3
          Compliance With Statutory Requirements for the Disclosure of
          Collection Activity With Respect to Jointly Filed Tax Returns
          Cannot Be Determined..................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 6
          Appendix III – Report Distribution List .......................................................Page 7
         Fiscal Year 2009 Statutory Review of Disclosure of Collection
                     Activity With Respect to Joint Returns




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                   Fiscal Year 2009 Statutory Review of Disclosure of Collection
                               Activity With Respect to Joint Returns




                                           Background

The Taxpayer Bill of Rights 21 added Internal Revenue Code Section (I.R.C. §) 6103(e)(8),
which gives joint filer taxpayers who are no longer married or no longer reside in the same
household the right to request information regarding the Internal Revenue Service’s (IRS) efforts
to collect delinquent taxes on their joint return liabilities.
I.R.C. § 6103(e)(8) requires the IRS to provide, in writing, collection activity information to joint
filers if they send in a written request. After passage of the Taxpayer Bill of Rights 2, the IRS
issued procedures which stated that if I.R.C. § 6103(e)(8) is not specifically cited in the request,
the IRS can provide either an oral or written
response, based upon I.R.C. § 6103(e)(7).
The IRS Restructuring and Reform Act of 19982                     The Treasury Inspector General
                                                                 for Tax Administration is required
added I.R.C. § 7803(d)(1)(B), which requires the
                                                                    to annually evaluate the IRS’
Treasury Inspector General for Tax Administration                         compliance with
to review and certify annually whether the IRS is                        I.R.C. § 6103(e)(8).
complying with the requirements of
I.R.C. § 6103(e)(8).
A study by the IRS concluded there was a low volume of joint filer requests submitted under
I.R.C. § 6103(e)(8). An analysis of 6 former district offices3 over a 6-month period in Calendar
Year 2000 identified only 5 written joint filer requests. As a result of the study, management in
the Small Business/Self-Employed and Wage and Investment Divisions4 decided not to develop a
separate tracking system for joint filer information requests.
This review was performed in the office of the IRS Commissioner and the National Taxpayer
Advocate in Washington, D.C.; the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland; and the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period December 2008 through January 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions

1
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  Locations formerly known as district offices are now called Area Offices by the IRS.
4
  The Small Business/Self-Employed and Wage and Investment Divisions were created by the reorganization of the
IRS. Components of the former Collection and Customer Service Divisions were made a part of these Divisions.
                                                                                                       Page 1
                 Fiscal Year 2009 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns



based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                         Page 2
                 Fiscal Year 2009 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns




                                Results of Review

The Internal Revenue Manual Provides Employees Sufficient
Guidance for Handling Joint Filer Collection Activity Information
Requests
The provision of the Taxpayer Bill of Rights 2 related to joint filers was enacted out of
Congressional concern about the treatment of separated or divorced taxpayers. Representative
Nancy L. Johnson (R-Connecticut), when introducing the Bill, stated:
       The subcommittee learned of many instances where divorced taxpayers who had
       previously signed a joint tax return during their marriage were treated harshly when the
       IRS later disputed the accuracy of their joint tax return. In many cases the IRS tried to
       collect the entire amount of taxes from the wife, even though the omitted income or
       erroneous deductions which caused the deficiency were attributable solely to her former
       husband. All too often, the woman, being pursued for payment of taxes due, was not
       aware that a tax return filed during the marriage had been audited or that a deficiency
       had been imposed on the return.
To address this concern, the IRS revised its Internal Revenue Manual to include procedures for
responding to taxpayers who file jointly and submit written requests for information on IRS
collection activity. The Internal Revenue Manual instructs employees to disclose whether any
attempts have been made to collect the tax due from either one of the joint filers, the current
collection status, and the amount collected to date.
The Internal Revenue Manual procedures also allow employees to provide both oral and written
responses to taxpayers. IRS procedures require employees to respond in writing only when
taxpayers specifically cite I.R.C. § 6103(e)(8) as their authority for making written requests for
collection information on joint return liabilities. If the taxpayer’s written request does not
specifically cite I.R.C. § 6103(e)(8), the IRS has directed employees to provide oral responses
when practicable based upon I.R.C. § 6103(e)(7). The IRS believes oral responses provide good
customer service to taxpayers because the taxpayers get an immediate answer. We believe these
procedures provide IRS employees sufficient guidance for handling these requests in accordance
with the law.




                                                                                           Page 3
                 Fiscal Year 2009 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns



Compliance With Statutory Requirements for the Disclosure of
Collection Activity With Respect to Jointly Filed Tax Returns Cannot
Be Determined
IRS management information systems do not record or monitor joint filer requests for
information on collection activities. As such, we could not determine whether the IRS fully
complied with I.R.C. § 6103(e)(8) requirements when responding to written requests from joint
filers because of our inability to identify any joint filer requests received for information on
collection activities. During this review, management from the Small Business/Self-Employed
and Wage and Investment Divisions commented that the IRS’ position has not changed from last
year, and the IRS does not plan to implement a system to identify or track joint filer requests for
collection activity. In addition, there is no legal requirement for the IRS to record or monitor
cases involving these requests.
We do not recommend the creation of a separate tracking system and are making no
recommendations in this report. This is the tenth year in which we have reported our inability to
provide an opinion on the IRS’ compliance with the provisions of I.R.C. § 6103(e)(8).




                                                                                            Page 4
                   Fiscal Year 2009 Statutory Review of Disclosure of Collection
                               Activity With Respect to Joint Returns



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is in compliance with
I.R.C. § 6103(e)(8) related to the disclosure of collection activities to joint filers. To accomplish
our objective, we:
I.      Obtained confirmation from the Small Business/Self-Employed and Wage and
        Investment Divisions that the IRS neither has, nor plans to implement, a system or
        process to identify or track joint filer requests for collection information relating to the
        requirements of I.R.C. § 6103(e)(8).
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        personnel responsible for the Taxpayer Advocate Management Information System,1 the
        Information Tracking System,2 and the Performance and Results Information System 3 to
        determine whether there is a system or process that tracks taxpayer complaints relating to
        the requirements of I.R.C. § 6103(e)(8).
III.    Obtained information on the actions taken by the IRS in response to I.R.C. § 6103(e)(8)
        to determine the impact on IRS programs.
        A. Reviewed all prior Treasury Inspector General for Tax Administration audit reports
           for the statutory Joint Filer Reviews to identify any corrective actions taken by the
           IRS.
        B. Reviewed historical and current Internal Revenue Manual sections to identify any
           updates made in response to I.R.C. § 6103(e)(8).
        C. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
           identify how the IRS informs taxpayers of their rights to collection information on
           jointly filed tax returns under I.R.C. § 6103(e)(8).




1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Information Tracking System is an application used by the IRS to control and track information and
correspondence.
3
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.
                                                                                                       Page 5
                Fiscal Year 2009 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy F. Greiner, Audit Manager
Michael J. Della Ripa, Lead Auditor
Lynn Rudolph, Senior Auditor




                                                                                      Page 6
                Fiscal Year 2009 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 7
